by Pro Se Petitioner Stan J. Caterbone - From U.S. Third Circuit Case No. 19-2712 and U.S. District Court 19-2052

A PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF THE UNITED STATES

IN RE: STANLEY J. CATERBONE, et.al.,
PLAINTIFF
- CASE NO. 19-2712
U.S. DISTRICT COURT CASE NO. 19-2052

v.
Lancaster County Prison, et.al.,
DEFENDANTS

MOTION TO EXCEED PAGE LEGNTH
MOTION FOR APPLICATION FOR IN FORMA PAUPERIS STATUS

re A PETITION FOR A WRIT OF CERTIORARI
Given the complex issues contained herein and the PRO SE PETITIONER STAN J.
CATERBONE REQUESTS PERMISION TO EXCEED PAGE LEGNTH FOR THE COURTESY OF
THE UNITED STATES SUPREME COURT JUSTICES IN HAVING ADEQUATE INFORMATION
TO ADJUDICATE THIS CASE IN A FAIR AND EQUITABLE MANNER. An application for in
forma pauperis status is also included with this petition.
Wednesday August 12, 2020

Respectfully,

Stan 3. CaterboneJ Pro Se Litigant
Advanced Media Group
www.amaQiobalentertainmentQrouo.com
Linkedin Professional Networking Profile fclick here!
Twitter for THE ADVANCED MEDIA GROUP

U.S. Supreme Ct. Petition re Lancaster County Prison

Page No. 1 of 1

Wednesday August 12,2020

